<html>
<title> - BORDER CORRUPTION: ASSESSING CUSTOMS AND BORDER PROTECTION AND THE DEPARTMENT OF HOMELAND SECURITY INSPECTOR GENERAL'S OFFICE COLLABORATION IN THE FIGHT TO PREVENT CORRUPTION</title>
<body><pre>[Senate Hearing 112-110]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-110
 
                BORDER CORRUPTION: ASSESSING CUSTOMS AND
                       BORDER PROTECTION AND THE
                    DEPARTMENT OF HOMELAND SECURITY
   INSPECTOR GENERAL'S OFFICE COLLABORATION IN THE FIGHT TO PREVENT 
                               CORRUPTION

=======================================================================

                                HEARING

                               before the

 AD HOC SUBCOMMITTEE ON DISASTER RECOVERY AND INTERGOVERNMENTAL AFFAIRS

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 9, 2011

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
68-007                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="91f6e1fed1f2e4e2e5f9f4fde1bff2fefcbf">[email&#160;protected]</a>  


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                  Michael L. Alexander, Staff Director
                Nicholas Rossi, Minority Staff Director
                  Trina Driessnack Tyrer, Chief Clerk
             Joyce Ward Publications Clerk and GPO Detailee


 AD HOC SUBCOMMITTEE ON DISASTER RECOVERY AND INTERGOVERNMENTAL AFFAIRS

                   MARK L. PRYOR, Arkansas, Chairman
DANIEL K. AKAKA, Hawaii              RAND PAUL, Kentucky
MARY L. LANDRIEU, Louisiana          SCOTT P. BROWN, Massachusetts
JON TESTER, Montana                  RON JOHNSON, Wisconsin
                Donny Williams, Majority, Staff Director
             Jason Bockenstedt, Majority Professional Staff
             Seana Cranston, Minority Legislative Assistant
                       Kelsey Stroud, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Pryor................................................     1
    Senator Paul.................................................     2

                               WITNESSES

                         Thursday, June 9, 2011

Hon. Alan D. Bersin, Commissioner, U.S. Customs and Border 
  Protection, U.S. Department of Homeland Security...............     4
Charles K. Edwards, Acting Inspector General and Deputy Inspector 
  General, Office of Inspector General, U.S. Department of 
  Homeland Security..............................................     5

                     Alphabetical List of Witnesses

Hon. Bersin, Alan D.:
    Testimony....................................................     4
    Prepared statement...........................................    19
Edwards, Charles K.:
    Testimony....................................................     5
    Prepared statement...........................................    30

                                APPENDIX

    Chart referenced by Senator Pryor............................    41
    Chart referenced by Senator Pryor............................    42
Questions and responses submitted for the record from:
    Mr. Bersin...................................................    43


                  BORDER CORRUPTION: ASSESSING CUSTOMS
                     AND BORDER PROTECTION AND THE
                    DEPARTMENT OF HOMELAND SECURITY
                       INSPECTOR GENERAL'S OFFICE
           COLLABORATION IN THE FIGHT TO PREVENT CORRUPTION

                              ----------                              


                         THURSDAY, JUNE 9, 2011

                                     U.S. Senate,  
          Ad Hoc Subcommittee on Disaster Recovery and,    
                                Intergovernmental Affairs  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:04 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Mark L. 
Pryor, Chairman of the Subcommittee, presiding.
    Present: Senators Pryor and Paul.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. I will call our meeting to order here. First 
I want to welcome Senator Paul to his Ranking Membership of 
this Subcommittee. This is the first time you have had a chance 
to sit in as the Ranking Member, so thank you for your service 
and for doing this, and I look forward to working with you.
    I would also like to thank our panelists today and the 
distinguished audience that is here today because many of you 
all have been following these issues for a long time, and I 
just want to thank everyone for their attendance.
    We are going to examine the progress of the U.S. Customs 
and Border Protection (CBP) in preventing corruption in its 
workforce as well as the work of the Inspector General's office 
at the Department of Homeland Security in investigating and 
prosecuting those individuals who have been accused of 
corruption.
    Securing the United States' borders is a constant struggle 
for the residents of the border States and for the government 
officials who represent them. The Mexican cartels dominate drug 
trafficking into the United States. Their operations and 
methods are sophisticated, ruthless, and well funded. Their 
notorious presence and power in Mexico is made possible by 
bribery and corruption, intimidation, paramilitary force, and 
murder. The impact of their operations in the United States has 
been widespread.
    This Subcommittee held a hearing in March 2010 at which we 
learned that the cartels' operations are changing. They used to 
rely mostly on stealth techniques and the United States 
distribution network with operations in an estimated 230 
American cities, according to the National Drug Intelligence 
Center (NDIC). Three of those cities are in Arkansas.
    The good news about the changing operations is that 
heightened U.S. border defenses have put a squeeze on the 
cartels. Unfortunately, these cartels are not easily deterred, 
and they seek to regain an advantage by exporting to the United 
States their experience and success in bribing and corrupting 
government officials who can facilitate their business.
    We must continue to do everything that we can to disrupt 
and prevent these gangs from penetrating our communities. That 
is why I am pleased that last year the Congress passed and the 
President signed the Anti-Border Corruption Act of 2010. This 
bill is designed to complement CBP's Workforce Integrity Plan 
and prevent rogue border agents from being hired and retained.
    The bill requires that CBP follow its own employment 
policies requiring polygraph tests of all new applicants for 
law enforcement positions. It also directs CBP to initiate 
background checks on all backlogged employees within 6 months. 
Hiring new Border Patrol agents will help secure our borders 
only if these agents are truly committed to protecting our 
country. I look forward to hearing from Commissioner Bersin on 
the progress he has made in implementing this bill.
    Another area of interest today is the ongoing concern about 
the lack of true collaboration and information sharing between 
CBP and the Inspector General's office when it comes to 
investigating alleged acts of corruption. Fighting corruption 
is vital to protecting our borders and securing our 
communities. We must aggressively attack and investigate these 
cases if we are going to end corruption within the U.S. law 
enforcement agencies. However, we must conduct these 
investigations in an efficient and collaborative way that leads 
to results in the quickest way possible.
    Based on reports, this does not seem to be the way we are 
currently operating when conducting these investigations. I 
also look forward to our witness comments in this area.
    Our witnesses today are both very experienced individuals: 
Commissioner Bersin of the CBP and Charles Edwards, the Acting 
Inspector General (IG) of the Department of Homeland Security 
(DHS). These gentlemen are leading much of the U.S. 
Government's efforts to fight against drug-related corruption. 
We welcome them. We look forward to their testimony, but first 
I would like to recognize Senator Paul.

               OPENING STATEMENT OF SENATOR PAUL

    Senator Paul. Thank you very much, Mr. Chairman. Thank you 
for coming to testify here today. I, like Senator Pryor, am 
concerned about the lawlessness south of our border and the 
extent to which that lawlessness creeps across the border.
    The lawlessness has become so severe that people fear 
traveling to Mexico. There are people who are now referring to 
Mexico as a ``failed nation State.'' Is that an overstatement? 
I do not know. Regardless, I am worried about the lawlessness 
coming across our border.
    Corruption of our law enforcement personnel is a problem, 
but I am also worried about their physical safety. Our Border 
Patrol agents, our sheriffs, and our citizens traveling across 
the border are frequent targets of violence.
    I am also concerned about legal immigration, the issuance 
of visas, and whether or not we are monitoring those who we let 
into our country. Just last week, in Bowling Green, the Federal 
Bureau of Investigations (FBI) captured two alleged terrorists 
who came to the United States on an asylum program. We admitted 
last year 18,000 people from Iraq. This to me sounds like a 
large number. I wonder if we are adequately monitoring these 
people. Are we doing a good enough screening process?
    This goes for a lot of other people who are coming here 
legally. It is not just illegal immigration I am worried about. 
I am worried about legal immigration, whether or not it is 
being monitored properly.
    We have 40,000 students coming to this country from all 
over the world. Could some of them be potential attackers? The 
people who attacked us on September 11, 2001, were here on 
student visas. They were overstaying their visas. Was anybody 
monitoring them? Are we overseeing the whereabouts of students 
who are in our country now? Are we overseeing the refugee 
process?
    One of the men captured in Bowling Green had previously 
been in jail in Iraq. His fingerprints were found on an 
unexploded improvised explosive device (IED). His fingerprints 
were in our database for 2 years before we were able to arrest 
him.
    I do not know that we are doing a good enough job. I think 
as a country we are spending an amazing amount of resources on 
screening everyone universally as if everyone is a potential 
terrorist. I think that is a mistake. We are combing through 
everybody's bank records. We are invading the privacy of 
everyone in our country. We are doing pat-downs and strip 
searches of 6-year-olds in our airports. But are we spending 
enough time and resources targeting those who are potential 
attackers of our country?
    I would like to learn more about how the visa process is 
working, whether or not we are overseeing the people who have 
been admitted to our country, and whether or not there are 
sufficient safeguards to protect our country from terrorists 
who enter our borders legally. Thank you.
    Senator Pryor. Thank you.
    Sometimes we say that these people do not need any 
introduction, and really on these two, you really do not. So I 
am just going to be very brief and just say our first witness 
today is Alan Bersin. He is the Commissioner at the U.S. 
Customs and Border Protection. We look forward to hearing from 
you, Mr. Bersin.
    And then we will hear from our next witness, Charles 
Edwards. He is the Acting Inspector General at the Department 
of Homeland Security. Thank you very much for being here.
    We have a timing system today, and I think we are doing 5 
minutes on the opening statements. So if you could keep yours 
to 5 minutes, we will submit your written statements for the 
record, so those will be made part of the record. But we look 
forward to hearing from you, and we look forward to a good 
discussion afterwards. Mr. Bersin.

  STATEMENT OF THE HONORABLE ALAN D. BERSIN,\1\ COMMISSIONER, 
U.S. CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Bersin. Good morning, Mr. Chairman, Ranking Member 
Paul. It is an important day for me to appear here before you 
to update you on the progress that U.S. Customs and Border 
Protection is making to combat corruption and maintain 
integrity with our workforce.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Bersin appears in the appendix on 
page 19.
---------------------------------------------------------------------------
    Senator Pryor, you and this Subcommittee have been an 
important force in getting recognized the threat that we face 
on the U.S.-Mexican border and generally in terms of the men 
and women of CBP, now 60,000 strong, 48,000 of whom are on the 
front line of protecting this Nation and its borders.
    You recognize and we emphasize the commitment, bravery, 
vigilance, and character demonstrated by the vast majority of 
CBP agents and officers who indeed put their lives on the line 
to protect this Nation.
    Having said that, we recognize that there are bad apples in 
the barrel, and it is our job to minimize those, and it is our 
job to prevent corruption, detect it when it happens, prosecute 
it after investigating it, in concert with other Federal 
agencies and the United States Attorney's Office and the 
Department of Justice (DOJ).
    Unfortunately, CBP employees have and will continue to be 
targeted by criminal organizations, as the Chairman suggested 
and as the Ranking Member confirms. As we continue to see 
successes in our efforts to secure our Nation's borders, our 
adversaries continue to grow more desperate in their attempts 
to smuggle humans and illegal contraband into this country.
    Our most valuable as well as in some rare cases our most 
vulnerable resources are our employees. I am here today to 
candidly confront with you this vulnerability and the steps 
that we are taking with your assistance and the assistance of 
the Administration to mitigate this threat.
    Recently I put forward my first Statement of Intent and 
Policy as the Commissioner of CBP after a year of service 
outlining specific and high-level propositions to be 
incorporated into all aspects of CBP's interactions with the 
public, with other law enforcement, and within our own 
institution. That Statement of Intent and Policy dealt with 
integrity. It outlined the absolute importance that we attach 
to integrity in the discharge of our duties.
    We pride ourselves on being a family. However, when one of 
our own strays into criminality, we do not forgive him or her. 
Such was the case with Martha Garnica, the Customs and Border 
Protection Officer (CBPO) who betrayed her country, betrayed 
her fellow officers, betrayed our trust, and now sits in 
Federal prison for 20 years, as she so richly deserves.
    We recognize that we need to confront this, and we are 
doing so with the help of the resources and with the help of 
the Anti-Border Corruption Act that this Chairman and this 
Senate and Congress passed and the President signed.
    Since October 2004, 127 CBP personnel have been arrested, 
charged, or convicted of corruption. This breach of trust is 
something that we do not stand for, and while 7 years and tens 
of thousands of employees are besmirched by these evidences of 
corruption, we take each and every one of them seriously.
    The Anti-Border Corruption Act of 2010, which the Chairman 
championed, is one of the first steps to address the issue of 
corruption within the workforce before it can take hold. I look 
forward to discussing with you this morning the steps that we 
have taken in order to implement that act and be prepared to 
meet its deadlines.
    We recognize that there is work to be done. We are 
committed to doing it, and I believe you will be satisfied that 
we have made a good start along the path to being able to meet 
these deadlines.
    We also need, frankly, Mr. Chairman, to recognize that our 
best defense against corruption are the men and women of CBP 
themselves and, therefore, we have taken on the so-called Code 
of Silence within our institution. When we ask our officers to 
uphold the honor and integrity of their service, we add 
security to the border.
    Mr. Chairman, again, let me thank you for the Anti-Border 
Corruption Act and the role you played in securing it. I look 
forward to answering your questions and the Ranking Member's as 
we proceed this morning. Thank you, sir.
    Senator Pryor. Thank you. Mr. Edwards.

 STATEMENT OF CHARLES K. EDWARDS,\1\ ACTING INSPECTOR GENERAL 
AND DEPUTY INSPECTOR GENERAL, OFFICE OF INSPECTOR GENERAL, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Edwards. Good morning, Chairman Pryor, Ranking Member 
Paul, and distinguished Members of the Subcommittee. I am 
Charles K. Edwards, Acting Inspector General for the Department 
of Homeland Security. Thank you for inviting me today to 
testify about the Office of Inspector General (OIG's) role in 
the effort to eliminate corruption in the CBP workforce, a 
threat that strikes at the foundation of securing our Nation's 
borders.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Edwards appears in the appendix 
on page 30.
---------------------------------------------------------------------------
    The smuggling of people and goods across the Nation's 
borders is a large-scale business dominated by organized 
criminal enterprises. The Mexican drug cartels today are more 
sophisticated and dangerous than any other organized criminal 
group. They use torture and brutality to control their members 
and intimidate or eliminate those who may be witnesses or 
informants to their activities. The drug-trafficking 
organizations also turn to corrupting DHS employees.
    Border corruption impacts national security. A corrupt DHS 
employee may accept a bribe for allowing what appear to be 
undocumented aliens into the United States while unwittingly 
helping terrorists enter the country. Likewise, what seems to 
be drug contraband could be weapons of mass destruction, such 
as chemical or biological weapons.
    OIG has made investigation of employee corruption a top 
priority. In accordance with the Inspector General Act of 1978 
and the Homeland Security Act of 2002, the OIG exists as an 
independent element within DHS tasked with coordinating, 
conducting, and supervising investigations relating to DHS 
programs and operations. These statutes vest the OIG with the 
primary responsibility within DHS for investigating allegations 
of criminal misconduct of DHS employees.
    The IG statutory independence and its dual reporting 
responsibilities to the Department and to the Congress make it 
ideally situated to address employee corruption. Inspectors 
General play a critical role in assuring transparent, honest, 
effective, and accountable government. The organizational 
independence of OIG criminal investigators, free to carry out 
their work without interference by agency officials, is 
essential to maintaining the public trust.
    The DHS Management Directive plainly establishes OIG's 
right of first refusal to conduct investigations of criminal 
conduct by DHS employees and the right to supervise any such 
investigations that are conducted by DHS Internal Affairs 
components.
    It is the OIG's policy to investigate all allegations of 
corruption of DHS employees or compromise of systems related to 
the security of our borders and transportation networks. The 
Department's Internal Affairs offices play a useful role to the 
OIG by enabling the OIG to leverage its resources.
    CBP Office of Internal Affairs (IA) focuses on preventive 
measures to ensure the integrity of the CBP workforce through 
pre-employment screening of applicants, including polygraph 
examinations, background investigations of employees, and 
integrity briefings that help employees recognize corruption 
signs and dangers. These preventive measures are critically 
important in fighting corruption and work hand in hand with 
OIG's criminal investigative activities.
    The OIG has been working tirelessly in an honest attempt to 
negotiate a cooperative working arrangement that will detail 
CBP IA agents to the OIG to participate in the investigation of 
CBP employees along with the Immigration and Customs 
Enforcements Office of Professional Responsibility (ICE OPR). 
These additional assets are especially necessary as the CBP 
workforce continues to expand significantly while OIG remains 
relatively flat.
    DHS OIG works cooperatively with external law enforcement 
agencies on border corruption matters involving DHS employees. 
A key component of our investigative strategy is to leverage 
our limited resources and share intelligence with other law 
enforcement agencies. DHS OIG participates with border 
corruption task forces in many parts of the country. These 
cooperative relationships serve to ensure that different law 
enforcement agencies are not pursuing the same targets which 
duplicates efforts and places law enforcement agents' safety at 
risk.
    In conclusion, I appreciate the Subcommittee's attention 
and interest in the work of the OIG to investigate corrupt 
employees within the DHS workforce. We will continue to 
aggressively pursue these investigations with all resources at 
our disposal and in cooperation with law enforcement at all 
levels to ensure that employee corruption does not jeopardize 
our national security.
    Chairman Pryor, this concludes my prepared remarks. I would 
be happy to answer any questions that you or the Ranking Member 
may have. Thank you.
    Senator Pryor. Thank you, Mr. Edwards.
    Let me start with you, if I may, Mr. Edwards. On this 
chart,\1\ my understanding is you provided these numbers to the 
Subcommittee as part of your testimony today, and I see a big 
upswing in the number of investigations. Do you know why that 
is? Why are you seeing a pretty dramatic spike there in the 
number of investigations?
    Mr. Edwards. Well, actually, there is a 38-percent increase 
in complaints against CBP since 2004 from 3,112 to 4,162. These 
increases are because we have the act that was passed last year 
and we need to go back and CBP needs to do the background 
investigations, the polygraphs of the employees, because we 
find 60 percent of the employees who go through this do not 
pass it because of the corrupt or criminal background in their 
background. So there is a big spike in that.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Pryor appears in the appendix 
on page 41.
---------------------------------------------------------------------------
    Senator Pryor. OK. Say that again? As you are doing more of 
the polygraphs, more and more is showing up?
    Mr. Edwards. Well, we had a huge backlog----
    Senator Pryor. Right.
    Mr. Edwards [continuing]. And now CBP has gone back and has 
done that. Without doing that, there was a huge spike.
    Senator Pryor. I see.
    Mr. Edwards. They still have not caught up. And we are 
hoping by 2012 we are able to do 100 percent.
    Senator Pryor. I got you. Perfect. That makes sense.
    Now, there is also a pie chart\1\ that you provided to the 
Subcommittee as part of your testimony, and in this pie chart 
the navy blue, these are open, named CBP employee 
investigations, and I think the ``named'' is important because 
this does not mean it is all but it is one category of them, at 
least. So there are 613 total, and the navy blue is for 
corruption. It may be hard to see for the audience. That is 44 
percent. And then red is civil rights, and the green is 
suspicious behavior. So if you add the corruption and the 
suspicious behavior together, you get 78 percent. Those seem 
like alarming numbers to me. Could you talk about that for a 
little bit?
    Mr. Edwards. Well, corruption is abuse of public power for 
private gain. Examples are bribery, smuggling, theft, 
disclosure of sensitive law enforcement information. The 
cartels, the drug business, organized criminal enterprises, 
they are becoming very sophisticated, so they are trying to 
infiltrate our CBP workforce, and, our investigations, we have 
to get to the root of the problem. If we just go ahead and get 
rid of that one employee, we still have not gotten to the 
bottom of the problem. And, there is a huge percentage of it 
unnamed, and we have recently established a Forensic Threat 
Analysis Unit to get to the bottom of this.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Pryor appears in the appendix 
on page 42.
---------------------------------------------------------------------------
    Senator Pryor. OK. Did you want to comment on that, Mr. 
Bersin?
    Mr. Bersin. Mr. Chairman, I think as we are openly 
confronting the issue and the challenges that we face, and I 
want to point out and I commend the OIG as well as CBP IA and 
the FBI in terms of actually the number of investigations that 
have started. I think we have to recognize, though, and put in 
perspective that it is the kind of emphasis that the agencies 
are giving to the problem, that put more resources into the 
problem, that begin in the first instance to see an increase in 
the number of cases that are open. So more cases have been 
referred by CBP IA to the JICMS, the Joint Information System, 
and, in fact, those cases are being taken at a greater rate by 
DHS OIG for which we are thankful. But this is an issue of 
attention and focus and resource allocation.
    Senator Pryor. Right. Let me followup on that, if I can, 
Mr. Bersin, because one of the things that you have had a 
really large backlog on is your periodic reinvestigations, and 
I think you went through some numbers in your opening 
statement. Could you go through those again in terms of how 
many periodic reinvestigations you have completed so far.
    Mr. Bersin. Yes, sir. We recognize that under the Anti-
Border Corruption Act we are obliged as a matter of law to 
complete the period reinvestigations by the end of 2012. We 
will meet that objective by July 2012. We also understand the 
polygraph responsibilities. Every employee pre-employment will 
be polygraphed as of January 2013.
    Where we stand today--and as we have been working and 
keeping your staff and you informed of this--15,197 periodic 
reinvestigations previously backlogged, all of those have been 
initiated. And to be precise, as of May 31 of this year, 5,386 
periodic reinvestigations have been adjudicated; 9,219 are 
pending investigation or adjudication.
    What we have done to be sure that we are online to meet 
this, notwithstanding the hiring requirements of the southwest 
border supplemental bill, is to have the Personnel Security 
Division of Internal Affairs that handles this have devoted the 
bulk of their resources to these periodic reinvestigations.
    So while the task has been complicated by the additional 
hirings that the supplemental bill have provided us, we do not 
complain about those, but it does add another 1,250 additional 
cases, so to speak, to the backlog. But we are on target, Mr. 
Chairman, to meet the requirements of the act.
    Senator Pryor. How many do you think you will have 
completed by the end of 2011?
    Mr. Bersin. We have in the area of 800 that are in 
adjudication now, so I suspect that we are talking between now 
and the end of the Fiscal Year perhaps 1,200. So we have a fair 
amount to do, but we expect that we will be online to meet the 
end of Fiscal Year 2012 deadline.
    Senator Pryor. If you do the reinvestigations and the 
polygraphs, what percentage of the employees turn up with an 
issue? What percentage are you catching?
    Mr. Bersin. Well, in the last number, in the one that was 
referenced by my colleague, the Inspector General, was that 60 
percent present an issue. It depends on the population that you 
polygraph. And the nature of the issue differs, and what we are 
attempting to do because of the expense involved in 
polygraphing is actually to have a process in which we can see 
rise to the top those applicants who are less likely to face 
issues in a polygraph examination. But the number will depend 
on the actual population of applicants that you put through the 
examination.
    Senator Pryor. So you are not saying those 60 percent is 
the number of folks that are showing corruption. You are just 
saying they are showing some sort of----
    Mr. Bersin. Absolutely not.
    Senator Pryor. What is your sense of the number of 
applicants who somehow get tagged with corruption? Do you know 
that?
    Mr. Bersin. I could not give you a specific number. I will 
tell you, in the course of reviewing these, we do come across 
cases in which people reveal themselves to either have criminal 
backgrounds or links to organized criminal elements based in 
Mexico or gangs based in the United States, which disqualifies 
them. But I think it would be a disservice to the applicant 
pool to suggest that this is a large or even significant 
percentage.
    What we have to do is be sure that we have the filter that 
catches each and every one of those. But particularly given my 
background in education, I do not think that this is a 
generation of young people that presents generally more 
problems than my generation did.
    Senator Pryor. I am going to ask one more question, and 
then I will turn it over to Senator Paul here in just a second. 
This is a question really from another context, and that is the 
Federal Motor Carrier Safety Administration (FMCSA), is doing a 
pilot project for Mexican trucking companies to bring materials 
in, and I really have two questions for you.
    One, have you heard from FMCSA on this? And are you all 
taking any special precautions or any special procedures for 
these Mexican-owned trucking companies bringing goods into the 
United States?
    Mr. Bersin. Mr. Chairman, this is the pilot program to move 
away from the drayage issue, which will permit Mexican long-
haul carriers to actually cross the border, not have to 
reconnect, and continue on into the United States.
    In the first instance, this is a Department of 
Transportation (DOT) safety certification issue. We, of course, 
will be involved in clearing and inspecting cargo containers 
contained on those trucks, and we are keeping abreast of 
developments as this pilot unfolds. But it is a safety issue in 
the first instance, and then it presents the same issue of 
inspection, targeting, risk management that we do with regard 
to each of the 27,000 trucks that enter this country every day.
    Senator Pryor. The reason I am asking, of course, is 
because if the Mexican drug cartels are successful in 
corrupting local officials, police, judges and the military, it 
seems to me pretty likely that they could also corrupt these 
Mexican trucking companies, and they could just bring matters 
in, unless we pay special attention to them. So that would be a 
concern of mine.
    The other question I have is something that I talked with 
DOT about. The challenges you have had in your agency about 
finding corruption there and the drug cartels trying to 
actively, in some cases successfully, corrupt our agents there 
and I have asked them to reach out to you about some of the 
lessons you have learned in terms of making sure that their 
workforce that is going to be down on the border maintains 
their integrity.
    Have they had a chance to reach out to you yet?
    Mr. Bersin. We have not specifically talked, but we do work 
together on the interagency policy coordination on the border, 
and I will reach out to my colleague at the Department of 
Transportation.
    Senator Pryor. That would be great. Mr. Paul.
    Senator Paul. Mr. Bersin, do you keep a database on all 
those who are visiting our country on a visa, a travel visa or 
student visa?
    Mr. Bersin. Senator Paul, what CBP does in terms of 
admissibility of everyone who crosses into the United States 
every day--and we have a million people coming into the United 
States every day whose admissibility is handled by CBP officers 
at airports, land ports, and seaports. So we have a record of 
every person entering into the country and the basis on which 
he or she does so. Yes, sir.
    Senator Paul. OK. Do you also have a record of when they 
leave?
    Mr. Bersin. We do not have a biometric exit system in place 
yet. We have been working within DHS to look at the exit 
system, and there have been a number of pilots that have been 
handled by US-VISIT, TSA, and CBP in terms of coming up with a 
recommendation as to how an exit system can be reliably 
handled, recognizing that the airport context is one that is a 
manageable environment. The land borders are actually the 
environment that present the greatest challenge to our exit 
verification.
    Senator Paul. You have to go through Customs on the way 
into the United States. Do you go through Customs when leaving 
the country?
    Mr. Bersin. Only when we do outbound inspections, which we 
are doing on the U.S.-Mexican border in keeping with our new 
relationship with Mexico. But we do not for the most part do 
exit except on a surge basis in places like the northern 
border.
    Senator Paul. So there are a million people coming into the 
United States every day from other countries.
    Mr. Bersin. Yes, sir--well, and returning U.S. citizens. It 
is a mix.
    Senator Paul. Right. The thing I am still concerned about 
is, once people enter the country, how do we know if they are 
overstaying their visas? Do we know if they are obeying the 
rules of their students visas? Under whose purview does that 
fall? Who is checking that? Is that ICE? Who is checking to see 
whether someone overstays their visa?
    Mr. Bersin. This would be a responsibility of DHS in terms 
of Homeland Security Investigations on visa overstays. But this 
is an issue that, as you suggested in your opening remarks, has 
to be handled on a risk management basis. This has to be an 
ability to identify high-risk entrants into the country because 
we do not, obviously, have the resources nor should we be 
devoting equal resources to every one of those million people.
    Senator Paul. Those million people may also include a lot 
of U.S. citizens who are just coming back from a long-time trip 
to London so that is part of the million. Can you break the 
million down further? How many of them are visiting us from 
another country?
    Mr. Bersin. I will supplement the record. I cannot give 
that off the top of my head.

                       INFORMATION FOR THE RECORD


                         fiscal year (fy) 2010


        Total Passengers and Pedestrians        352,731,093
        Total Immigrants Processed (LPR)        53,954,941
        Total Non-Immigrants Processed         167,383,751
        Total Non-US Citizens Processed         221,338,692
        Total Inadmissible Aliens                    231,197

    Senator Paul. Yes, I think that is what we need to do. If 
you were looking at a million entrants, you would find out if 
500,000 of them are U.S. citizens traveling on business. 
Obviously they would not need as much scrutiny. Entrants from 
Middle Eastern countries might need a little more scrutiny, but 
we would have to do good police work to do that. Once you 
narrow that down, we need to know who comes in and who leaves, 
and the difference between the two is those who are overstaying 
their welcome. We live in such an electronic age that you would 
think even if you are driving across the border to or from 
Canada, that would be entered into a data bank and should be 
easily reconcilable with who is overstaying their welcome here. 
Since September 11, 2001, we have begun to treat everyone as a 
potential terrorist. Universally we have begun scrutinizing 
everybody to the nth degree, instead of doing what I think 
would be just good police work. It would be less expensive and 
less intrusive into our privacy to focus our efforts on the 
people who did attack us and who continue to attack us, instead 
of focusing on U.S. citizens.
    Mr. Bersin. The essence of our system at CBP and across DHS 
increasingly is risk management. It is exactly that. It 
recognizes that we have limited resources and that we have to 
do targeted attention. And after making a risk assessment in 
terms of trusted shippers, high-risk shipper, trusted 
travelers, high-risk travelers, we then have to segment the 
traffic to permit us to deal with it in sequence.
    But just to indicate that your general point I could not 
agree with more, but when we look at a Faisal Shahzad, who is a 
U.S. citizen, naturalized, we have to recognize that this risk 
assessment system cannot just be cut into certain categories.
    Senator Paul. Yes, it is not just citizenship status. If 
you are a U.S. citizen and you have been to Yemen three times 
in the last year and you are a not a businessman who has 
business, or a family, in Yemen, that might be a red flag for 
us. You are right. It is not as simple as what your religion 
is, the color of your skin, or any of that. It is more 
complicated. There is a whole host of figures that we need to 
look at and then excluding the people who are traveling 
frequently on business. It is the same what we are doing in our 
country, though, with the TSA. How many people fly every day 
within the United States? A million or more fly every day. I 
think we are wasting resources and not doing good enough police 
work. We are distracted from the real police work we could do 
because we have to treat everybody universally as a potential 
terrorist.
    I would recommend that at some point in time--and it sounds 
like this is an ongoing process that we do talk about 
monitoring who comes in and who leaves, and it should be very 
easy to determine from that. I do not get a good feeling that a 
decade after September 11, 2001, we know where everyone in the 
country is who is on a student visa, how often they are being 
checked, and whether or not they are in the country and obeying 
the rules of their entry.
    The other question I have--I do not know if you know the 
answer to this or not--is: What percentage of visas approved by 
the State Department and issued in another country, once they 
come through Customs are then rejected? Because that happens, 
right?
    Mr. Bersin. Yes, when a visa is presented at a point of 
admission, there are circumstances in which the CBP officer 
will refuse admission, and based on information that would be 
available and would alert the officer, the visa can be set up 
for revocation.
    I would need to supplement in terms of the millions with 
which we deal what the actual percentage of revocation is.
    Senator Paul. Yes, I would like to know. It is important to 
me to know not the exact number but the percentage. If you are 
rejecting 5 percent of State Department visas, maybe that means 
you are just doing a good supplementary job to the State 
Department. However, if you are rejecting 30 percent, maybe it 
means the State Department is not doing a very good job. I 
don't want to point fingers, but we need to ask these 
questions, which gets us back to all these refugees and 
political asylum people we are letting in from Iraq. We need to 
know who is approving them, what kind of screening process they 
undergo.
    Now, do you have anything to do with the refugee admittance 
into our country?
    Mr. Bersin. CIS handles the status issues. We would be 
involved in the initial admissibility issues, as we would be 
with anyone presenting themselves for admission into the United 
States.
    Senator Paul. So they go through the State Department first 
and then are subject to screening by Customs and Border 
Protection when they come through the airport, you mean?
    Mr. Bersin. To the extent that--yes, if there is an 
admissibility issue. But the actual refugee status would be 
State Department and a combination of Citizenship and 
Immigration Services at DHS.
    Senator Paul. Right. So Customs and Border Protection is 
not actually actively doing extensive background checks on 
individuals. That is something the State Department is 
supposedly doing before they get to you.
    Mr. Bersin. That is correct, Senator. But what we rely on 
is information that would give us an ability to make a risk 
assessment with regard to any of those people based on the 
collected data and databases available to the U.S. Government.
    Senator Paul. All right. Thank you very much. If you can 
find any of that other information, I am interested in having 
it. I think there is a big picture here that we still need to 
be pursuing as far as the safety of our country is concerned. 
Thank you.
    Mr. Bersin. Thank you.
    Senator Pryor. Thank you, Senator Paul. Good questions.
    Let me go ahead and dive into a little bit of a follow-up 
from previous hearings and other matters that we have worked on 
here together. I am interested in the way you two see your 
specific roles in investigations, and my understanding is--and 
I have talked to both of you and both your offices about this. 
In the past there has been some, I guess I would say, 
friction--or I do not know if I would say gaps, but some 
friction, some disagreement about what the roles should be. And 
my understanding is that you all have worked hard to try to 
address these.
    I also understand that you may be fairly close to doing 
some sort of written agreement on what your roles would be, and 
I would like to get a status report on that. Mr. Edwards, do 
you want to start there?
    Mr. Edwards. Sure. Well, there are three reasons. First, 
the Inspectors General play a critical role in assuring 
transparency, honest and effective and accountable government, 
both personal and organizational independence of OIG's 
investigators to carry out the work. Second, it is the public 
trust and also, third, avoiding duplication.
    The statutory authority that IG has, we do all 100 percent 
of the criminal investigations on all allegations. Our position 
is CBP IA plays a complementary role by--and even Congress 
recognized that with the Anti-Border Corruption Act of 2010. 
CBP does the integrity work by doing the pre-employment 
screening of applicants, including polygraph and background 
investigations.
    Both myself and Alan have been working together trying to 
come up where CBP IA agents could work--could be detailed to 
OIG and work under the OIG's supervision to work some of the 
cases. That gives Commissioner Bersin the information that he 
is looking for, and the agreement that I, in fact, last night 
signed and sent over--I am waiting still for Alan to sign it, 
because I have to look into my independence, the statutory 
authority, and the management directive where OIG has the lead. 
I think Alan recognizes that, but we just have--from his point 
I think he still has some differences, but I have done my part.
    Senator Pryor. OK. Mr. Bersin.
    Mr. Bersin. First I should say, Senator, that what a 
difference 3 months makes. So, yes, I think it is fair and the 
law enforcement professionals both in OIG and IA will know that 
I say this respectfully when I say that there was more than 
tension and friction. There was outright confrontation and an 
unacceptable situation. And in most situations like this, it 
makes no sense to try to fix the blame but, rather, fix the 
problem. And I want to compliment both offices for endeavoring 
to do precisely that.
    In April of this year, the Inspector General reached out 
very directly and said that he wanted to discuss this issue and 
he wanted to see that working together we could actually 
reverse the history of the last few years, which, again, was a 
function of people passionate about their duties and dedicated 
public servants who saw the world in a different way. I think 
we have made huge strides toward that goal.
    In January 2011, as the Senator knows, we entered into an 
unprecedented agreement within DHS with ICE, with Homeland 
Security Investigations, in which for the first time CBP IA 
agents are detailed into ICE offices and are working to 
supplement the resources of ICE, ICE's Office of Professional 
Responsibility, to work down the investigative caseload, and we 
have seen tremendous progress in the first 5 months of that 
collaboration.
    When you put law enforcement professionals together in the 
field to work on a case, the work gets done without the kind of 
friction that often attaches to turf battles that occasionally 
surface in Washington.
    What we have seen already in the ICE-CBP collaboration is 
that the number of cases being worked have been decreased from 
160 to 127, and we have seen the clearing up of cases because 
of the additional resources. We recognize in that agreement, 
that memorandum of understanding with ICE, that the ICE lead 
case agent has supervisory responsibility. We have engaged in 
thus far I think very successful negotiations with OIG. Our 
staff members have brought us to the positive brink, so to 
speak, of entering into a similar agreement in which CBP 
acknowledges the responsibilities under the management 
directive of OIG and will be, I believe, welcomed into the OIG 
investigative effort as a full law enforcement member. That can 
only be to the good of the American people and to challenging 
and taking on the threat of corruption.
    So I think we are close, and I think we can overcome the 
remaining issues. Those issues, frankly, are not so much about 
the relationship between the CBP and OIG but, rather, the way 
in which OIG could be welcomed back within--recognizing its 
responsibilities under the Inspector General Act and its 
responsibilities under the DHS Management Directive, could be 
welcomed back into the Border Corruption Task Forces that exist 
in 22 sites in the United States that have been organized by 
the Federal Bureau of Investigation and the Department of 
Justice and are a critical element in a whole-of-government 
approach to taking on border corruption.
    Those issues need to be worked through. That happens to be 
a tripartite negotiation, and I am confident that over time we 
can address it and expect that we can overcome the issues. But 
that is where the issues are. That is where the remaining 
issues are in terms of closing off a chapter that all of us 
want to put behind us in terms of tension between CBP IA and 
DHS OIG.
    Senator Pryor. Mr. Edwards, you said you sent a draft 
agreement over last night?
    Mr. Edwards. Yes.
    Senator Pryor. Is it your intention that the draft 
agreement would cover all the outstanding issues----
    Mr. Edwards. Yes.
    Senator Pryor. Or are there still issues beyond that?
    Mr. Edwards. Right, well, first I must commend Secretary 
Janet Napolitano for her leadership in bringing us together. 
She has given pretty good advice to us to get this thing 
resolved.
    I have taken into account our independence, the statutory 
authority that we have. At the same time, we do not have the 
resources necessary to--because we have to have one DHS. There 
has to be one face. And I recognize that, and my staff has been 
actively working with Alan's staff, and we have overall an 
agreement, but there is still a sticking point, because we feel 
that if you are working along with us and you are having 
visibility to 98 percent of the cases, and then along with 
Border Corruption Task Force (BCTF) you are still there, then 
it is a duplicative effort.
    The reason we pulled out from BCTF last year was because it 
goes against the whole OIG statutory authority. Everybody is 
equal partners, but the statutory requirement says that we 
supervise, lead the investigations, and the FBI was the only 
lead. So we went back and for the last several months we have 
been working with--we have a similar situation in San Diego 
that for several months we worked together with the U.S. 
Attorney there and as a joint leadership between the FBI and 
OIG. The talks for a couple of months went ahead, and the U.S. 
Attorney agreed with us. But all the parties did not agree to 
that, so the U.S. Attorney has withdrawn from BCTF and has 
taken our cases directly.
    But having said that, there are several instances 
throughout the country, even though we have not signed an 
Memorandum of Understanding (MOU) with the FBI on the BCTF, we 
are still working with them. So we are hopeful that we can 
resolve this and have CBP IA agents work under us and bring 
down the caseload.
    Senator Pryor. From my standpoint this is just too 
important to get into a turf battle on. What you are talking 
about here is the security of our country and to make sure we 
do not have the corruption that may be rampant in other 
countries, but it is rare here. I just hope that you all will 
continue to work together to get this resolved.
    I have no idea, of course, what is in your proposed 
agreement, but, Mr. Bersin, certainly I know you just got it 
last night, so it is not fair to ask you about it today. But I 
hope that you all will look at it and continue to work to some 
understanding and get some agreement as quickly as possible.
    Mr. Bersin. I am confident that we will continue to do 
that. As the Inspector General indicated, Secretary Napolitano 
has indicated very compellingly to both of us and to our 
offices that she expects a resolution. And as I said, I think 
for the most part we have a resolution as between our offices. 
What we need to do now is to see if we cannot take that spirit 
and create a whole-of-government approach. I do not think that 
it makes sense to see us in competition with the Department of 
Justice but, rather, to knit the Department of Justice and the 
Department of Homeland Security into a satisfactory arrangement 
that maximizes our joint approach to the threat of border 
security and the challenges to that security posed by 
corruption.
    Senator Pryor. I think if both of you are committed to 
working together and getting this done and closed I think that 
goes a long way. And like you, I appreciate Secretary 
Napolitano and her leadership on this. She and I have talked 
about this, and I know that she is concerned, and she knows I 
am concerned. So if you all can get this done as quickly as 
possible, I think it will do nothing but be a good thing for 
the country.
    Let me ask just a few more questions--Mr. Bersin, let me 
start with you--on the current status today of the new hires 
receiving polygraphs. My understanding is you are not yet at 
100 percent on the new hires. What percentage are you? And when 
will you get to 100 percent?
    Mr. Bersin. In Fiscal Year 2011 we have polygraphed 22 
percent of the applicants, and we currently are implementing a 
business plan that would move us from 35 polygraphers inside 
CBP to 52 so that we can meet the January 2013 requirement set 
forth in the Anti-Border Corruption Act.
    We have solicited help from other Federal agencies in terms 
of providing polygraphers to us, and I am pleased to report to 
you that, as expected, the Federal law enforcement community 
has reacted by providing 20 additional polygraphers so that we 
can ramp up consistent with the business plan we have outlined.
    Senator Pryor. Would that just be temporarily to help you 
with the backlog? Or you would retain those permanently?
    Mr. Bersin. Those 20 would be temporary and help us until 
we built up our in-house capacity, Mr. Chairman.
    Senator Pryor. Right. And is there a concern about your 
backlog actually increasing at the beginning of 2011, 2012, and 
2013?
    Mr. Bersin. The challenge that we have is we have a fairly 
stable attrition rate, so we can project with some degree of 
certainty how many Border Patrol agents and how many CBP 
officers we are going to need to replace by reason of 
attrition.
    Where the challenges come in this year--but it is a 
challenge we welcome because it provides more border resources 
to accomplish the mission--is that the southwest supplemental 
bill, as you know, of $600 million provided that we hire an 
additional 1,000 Border Patrol agents and 250 CBPOs. The Fiscal 
Year 2012 budget provides an additional 350 CBP officers. So 
all of this gets added on to the attrition number that we 
replace each year, but that business plan that we have 
developed on polygraphers and on getting our periodic 
reinvestigations done, as well as the new background 
investigations, accounts for that bulge.
    Senator Pryor. Once you get your backlog down to where it 
needs to be, do you see this as the backlog going away 
permanently? Or do you think it will rise again in the out-
years?
    Mr. Bersin. Senator, remember, CBP doubled in size between 
2004 and 2010, so what we are seeing in the issue of backlog 
really arises from this kind of jump in the size of the 
workforce, so that by the end of this year we expect to see 
5,000 more periodic reinvestigations required because every 5 
years we are required to do these investigations. So we will 
have to live through a period where, because of that steep 
slope in growth, we will see that same steep growth in the 5 
years when the periodic reinvestigations are due, absent 
whatever attrition has taken place.
    What we need to develop within our agency is over the 
course of time we are going to need to even that out, and we 
are going to need to make some adjustments by having some 
periodic reinvestigations done in 3 years, some in 4 years, 
some in 5 years until we can actually get a much more even flow 
into internal affairs.
    Senator Pryor. Yes, that makes sense.
    Well, listen, I have some other questions. I think what I 
will do is submit those for the record.
    I appreciate both you all being here today, the fact that 
you are doing a better job and both of you are saying you are 
doing a better job in working together and coordinating and not 
having these internal struggles, I know we are not completely 
done yet, but I hope sometime soon we will get that written 
agreement done and everybody will be on the same page. So I 
want to thank you all for being here today.
    Like I said, we will have some additional questions for the 
record, and what we will do is we will keep the record open for 
14 days, and as Members of the Subcommittee may submit those, 
they will get them to Subcommittee staff, and we will get those 
to you, and we would just appreciate you getting those returned 
to us.
    Thank you very much for being here, and I want to again 
thank Senator Paul for his time here, and I look forward to 
working with him on this Subcommittee.
    Thank you very much.
    Mr. Edwards. Thank you.
    Mr. Bersin. Thank you.
    [Whereupon, at 10:59 a.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T8007.001

[GRAPHIC] [TIFF OMITTED] T8007.002

[GRAPHIC] [TIFF OMITTED] T8007.003

[GRAPHIC] [TIFF OMITTED] T8007.004

[GRAPHIC] [TIFF OMITTED] T8007.005

[GRAPHIC] [TIFF OMITTED] T8007.006

[GRAPHIC] [TIFF OMITTED] T8007.007

[GRAPHIC] [TIFF OMITTED] T8007.008

[GRAPHIC] [TIFF OMITTED] T8007.009

[GRAPHIC] [TIFF OMITTED] T8007.010

[GRAPHIC] [TIFF OMITTED] T8007.011

[GRAPHIC] [TIFF OMITTED] T8007.012

[GRAPHIC] [TIFF OMITTED] T8007.013

[GRAPHIC] [TIFF OMITTED] T8007.014

[GRAPHIC] [TIFF OMITTED] T8007.015

[GRAPHIC] [TIFF OMITTED] T8007.016

[GRAPHIC] [TIFF OMITTED] T8007.017

[GRAPHIC] [TIFF OMITTED] T8007.018

[GRAPHIC] [TIFF OMITTED] T8007.019

[GRAPHIC] [TIFF OMITTED] T8007.020

[GRAPHIC] [TIFF OMITTED] T8007.021

[GRAPHIC] [TIFF OMITTED] T8007.022

[GRAPHIC] [TIFF OMITTED] T8007.025

[GRAPHIC] [TIFF OMITTED] T8007.026

[GRAPHIC] [TIFF OMITTED] T8007.023

[GRAPHIC] [TIFF OMITTED] T8007.024

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
